910 LOUISIANA
HOUSTON, TEXAS
77002-4995
TEL +1 713.229.1234
FAX +1 713.229.1522

BakerBotts.com

AUSTIN
BEIJING
BRUSSELS
DALLAS
DUBAI
HONG KONG

HOUSTON

LONDON
MOSCOW
NEW YORK
PALO ALTO
RIYADH
SAN FRANCISCO
WASHINGTON

February 11, 2020
084201.0101
Aaron Michael Streett
TEL +1 713.229.1855
FAX +1 713.229.7855
aaron.streett@bakerbotts.com

BY HAND DELIVERY AND
ELECTRONIC FILING
Hon. Scott Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, D.C. 20543
Re:

Maghreb Petroleum Exploration, S.A., et al. v. John Paul DeJoria, No. 19-789

Dear Mr. Harris:
The petition for a writ of certiorari in the above-referenced case was placed on the
Court’s docket on December 20, 2019. Pursuant to this Court’s request for a response, the due
date for a brief in opposition is February 24, 2020.
Pursuant to this Court’s Rule 30.4, respondent respectfully requests that the time
within which to file a brief in opposition be extended to and including March 25, 2020. A short
extension will allow respondent to fully evaluate and respond to both the petition and the amicus
brief, in light of counsel’s obligations before this and other courts. An extension will not
materially delay the disposition of the case.
Very truly yours,

Aaron M. Streett
Counsel for Respondent John Paul DeJoria
cc:

Counsel of Record for Petitioners
Geoffrey L. Harrison

44630051.1

